<html>
<title> - AFGHANISTAN: IDENTIFYING AND ADDRESSING WASTEFUL U.S. GOVERNMENT SPENDING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   AFGHANISTAN: IDENTIFYING AND ADDRESSING WASTEFUL U.S. GOVERNMENT 
                                SPENDING

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

                           Serial No. 113-108

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-070 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2014....................................     1

                               WITNESSES

Mr. Donald L. Sampler, Assistant to the Administrator, Office of 
  Afghanistan and Pakistan Affairs, U.S. Agency for International 
  Development
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. John F. Sopko, Inspector General, Special Inspector General 
  for Afghanistan Reconstruction
    Oral Statement...............................................    18
    Written Statement............................................    21

                                APPENDIX

USAID Stage 2 Risk Assessment Reports on 7 Afghan Ministries 
  submitted by Rep. Jason Chaffetz...............................    90

 
   AFGHANISTAN: IDENTIFYING AND ADDRESSING WASTEFUL U.S. GOVERNMENT 
                                SPENDING

                              ----------                              


                        Thursday, April 3, 2014,

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2247, Rayburn House Office Building, the Honorable Jason 
Chaffetz [chairman of the subcommittee], presiding.
    Present: Representatives Chaffetz, Duncan, Mica, Woodall, 
Tierney, Maloney, Welch, Kelly.
    Staff Present: Andy Rezendes, Majority Counsel; Melissa 
Beaumont, Majority Staff Assistant; Will Boyington, Majority 
Deputy Press Secretary; Adam P. Fromm, Majority Director of 
Member Services and Committee Operations; Linda Good, Majority 
Chief Clerk; Tyler Grimm, Majority Senior Professional Staff 
Member; Mitchell S. Kominsky, Majority Counsel; Laura L. Rush, 
Majority Deputy Chief Clerk; Sang H. Yi, Majority Professional 
Staff Member; Jaron Bourke, Minority Director of 
Administration; Devon Hill, Minority Research Assistant; 
Jennifer Hoffman, Minority Communications Director; Peter 
Kenny, Minority Counsel; Chris Knauer, Minority Senior 
Investigator; Julia Krieger, Minority New Media Press 
Secretary.
    Mr. Chaffetz. This committee will come to order.
    I would like to begin this hearing by stating the Oversight 
and Government Reform Committee's mission statement. We exist 
to secure two fundamental principles. First, Americans have the 
right to know the money Washington takes from them is well 
spent; and second, Americans deserve an efficient and effective 
government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they get from their government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy. This is the mission 
of the Oversight and Government Reform Committee.
    I want to welcome you all here. This is a very important 
topic. We have entitled this hearing Afghanistan: Identifying 
and Addressing Wasteful U.S. Government Spending.
    I would also like to welcome Ranking Member Tierney of 
Massachusetts and members of the audience and thank you for 
being here today. I know Mr. Tierney in particular has a 
passion for these issues and I appreciate working with him and 
his staff on this topic.
    Today's proceedings continue the subcommittee's series of 
hearings designed to assess the U.S. reconstruction efforts in 
Afghanistan. Since 2002, the United States has directed over 
$102 billion toward relief and reconstruction efforts in 
Afghanistan. Let me say that again: $102 billion in the 
reconstruction effort. This does not count the war effort. This 
is the reconstruction effort.
    Afghanistan is by far the leading recipient of U.S. 
economic and military assistance. Meanwhile, the president 
intends to withdraw U.S. troops from Afghanistan, known as one 
of the most corrupt countries on the face of the planet.
    On the good side, I have recently read that there were no 
deaths in Afghanistan for a one-month period, and for that, we 
are very grateful. I think it is also appropriate that at this 
time we pause for a moment and thank the men and women who 
serve in our military, who serve in USAID and other agencies 
who have put their lives on the line overseas. And certainly 
our hearts are stricken and our prayers are with those at Fort 
Hood as they deal with a domestic issue here. I can't even 
imagine what the families are going through, but I know our 
hearts and prayers are with them. God bless them and Godspeed.
    That said, while the level of U.S. reconstruction funding 
has escalated every year since 2007, the areas in Afghanistan 
that U.S. oversight agencies are able to access in order to 
conduct oversight continue to shrink to small enclaves. As a 
result, we need to carefully examine whether the United States 
Government will be spending billions of dollars on this effort 
effectively, equipped with sufficient oversight mechanisms.
    Of the overall reconstruction effort, USAID has 
appropriated roughly $17 billion. Today I would like to hear 
from USAID how, $17 billion later, the agency's efforts have 
improved the environment in Afghanistan. I have visited 
Afghanistan several times and have serious concerns about the 
region.
    For example, USAID will likely spend $345 million on the 
Kandahar-Helmand Power Program, designed to improve the Kajaki 
Dam. The program was supposed to be completed in 2005, yet a 
decade later and hundreds of millions of dollars dedicated to 
the program, USAID's work on the enhanced Kajaki Dam is still 
plagued by sufficient problems. Even now there appear to be 
more challenges than there are results. This represents the 
epitome of the issue we face in Afghanistan reconstruction 
efforts and should not be acceptable to the Administration.
    Given these challenges, this subcommittee has been, in 
bipartisan fashion, working diligently to monitor the progress, 
challenges and successes of our reconstruction efforts. 
Specifically, the subcommittee has been looking at how the 
government is overseeing billions of dollars being given to 
Afghanistan. We have examined many cases where lack of 
transparency and accountability exist for U.S. taxpayer money.
    The subcommittee has investigated petroleum oil lubricants 
provided to the Afghan National Army by the United States, 
totaling nearly half a billion dollars. Meanwhile, the Defense 
Department failed to properly maintain receipts for these 
transactions. We have also investigated Dawood Hospital, where 
the United States provided more than $150 million in medical 
supplies in just an 18-month period. Unfortunately, theft, 
mismanagement and human suffering became rampant at Dawood.
    Oversight efforts are more important than ever as the 
United States has promised to give even more direct assistance 
to Afghanistan. Based on this, I would like to hear how the 
U.S. Government maintains visibility and control over taxpayer 
funding once the money goes to Afghanistan and when it is 
distributed through the Afghan government.
    This all leads to a greater need for improved 
accountability. The United States and other international 
donors have funded about 92 percent of Afghanistan's total 
public expenditures. Of that 92 percent, the United States has 
contributed roughly 62 percent. This means that the United 
States has made a substantial investment in Afghanistan and we 
need to make sure the investment has proper oversight and that 
this is a wise expenditures of taxpayer dollars.
    I commend USAID for working diligently on the Afghan 
reconstruction efforts and SIGAR, the Special Inspector General 
for Afghan Reconstruction, for working to increase 
accountability for that funding. I very much appreciate both of 
your hard work on this issue. We all recognize it is a very 
difficult problem.
    Today I would like to discuss some of SIGAR's 
recommendations to mitigate risks to U.S. funding and learn the 
status of whether those suggestions are being implemented and 
best practices are being implemented to enhance overall 
oversight in Afghanistan.
    Additionally, I also have some concerns about the current 
relationship between USAID and the Special Inspector General's 
office. It has been brought to my attention there are serious 
policy disagreements concerning the examination of documents 
and release of documents, prompted by FOIA requests, which is a 
subject matter over which the committee holds jurisdiction.
    To the extent of the law, taking account of certain 
sensitivities on a case by case basis, I support the need for 
maximum transparency and accountability required in order to 
provide oversight.
    I particularly want to thank Mr. Sampler and Mr. Sopko for 
being here today. These great patriots who care deeply about 
their Nation work hard in their respective fields. I have great 
personal respect for each of these gentlemen, and I appreciate 
them joining us here today.
    Now I would like to recognize the ranking member, the 
gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I want to thank both 
our witnesses for appearing here today. This is our third 
subcommittee hearing in this Congress on foreign assistance in 
Afghanistan. I want to applaud the chairman for his persistence 
and diligence of attention to the topic.
    This subcommittee has a long history of focusing on waste, 
fraud and abuse of taxpayer funds in Iraq and Afghanistan, 
including my tenure as chairman of the subcommittee when we had 
the investigation into the host nation trucking contract, 
finding the vast protection networks supported by insurgents 
and warlords, investigations into fuel contracts and then 
investigations started and continued with respect to the food 
contracts and much more.
    Today's hearing will focus on oversight and management of 
the U.S. Agency for International Development's projects and 
programs in Afghanistan. At a full committee hearing on direct 
assistance nearly one year, I asked Special Inspector General, 
Mr. Sopko, who is here today, about a set of documents that he 
indicated raise significant concerns about the ability of the 
Afghan government to manage and account for funds that the 
United States planned to provide directly to it.
    The documents at issue were USAID assessments of 13 Afghan 
ministries, public financial management systems performed by 
outside auditors. I asked whether Inspector General Sopko would 
be willing to provide these assessments to the committee and he 
told us that he had been instructed by USAID not to provide 
them to Congress due to their markings as sensitive but 
unclassified. Inspector General Sopko testified that when he 
asked for an explanation for why these documents were marked 
sensitive but unclassified, he was told by USAID officials that 
the materials were ``mainly embarrassing.''
    Mr. Chairman, based on my concerns at that time, I asked 
for the committee to follow up on this matter. And 
consequently, we supported your request for the agency's 
inspector general to provide us with a set of unredacted 
documents. Shortly after that, USAID in coordination with the 
State Department did provide the 13 external assessments of 
Afghan ministries to the committee. In providing those 
documents in a redacted form, USAID indicated in an April 30th, 
2013 letter that the ``public disclosure of personally 
identifiable information could threaten the lives and 
livelihoods of people named in those asesssments or their 
associates.'' It also cited foreign government information such 
as ``information that could be misused to exploit, currently or 
otherwise, Federal abilities identified in these assessments.''
    USAID also claimed that the release of the information in 
totality would have a damaging effect on the United States 
government relations with the Afghan government. USAID also 
offered to provide the committee staff with the opportunity to 
review full, complete, unredacted copies of the 13 ministerial 
assessments at USAID's offices, as the agency had previously 
provided to the committee for other types of assessments.
    This January, SIGAR released a report reviewing USAID's 
external as well as USAID's internal assessments of the Aghan 
ministries' capacity to manage U.S. funds planned for direct 
assistance. This report found that none of the 16 Afghan 
ministries examined by outside auditors were able to manage 
U.S. funds and that the auditors issued nearly 700 
recommendations for corrective action. According to the report, 
USAID then conducted its own risk reviews of 7 of the 13 Afghan 
ministries and made 333 recommendations on how to mitigate the 
risks to USAID funds. Yet the report goes on to state that 
USAID approved direct assistance at all seven Afghan 
ministries, while only requiring 24 of the 333 recommendations 
to be implemented.
    While the report acknowledges that it did not examine the 
effectiveness of the USAID safe guides that are already in 
place, nor did it determine whether any fraud had occurred, I 
look forward to a thorough discussion today of these decisions, 
given the identified risks.
    Just this week the committee received copies of the 
internal risk reviews of the seven Afghan ministries, documents 
critical to the USAID's decision to approve direct assistance. 
As a preliminary matter, although SIGAR appears to have 
redacted some information in these reviews, I have asked the 
chairman that before these documents are made part of any 
public record, a proper review by this committee can be 
conducted to ensure that we are not endangering the lives of 
anyone. And since SIGAR offered USAID the opportunity to 
comment on proposed redactions or other agency documents, it 
only seems fair to do so in this case as well.
    Those documents lay bare the substantial, if not seemingly 
insurmountable risks in providing U.S. funds directly to the 
Afghan government. For instance, USAID's internal risk review 
of the Afghan Ministry of Public Health found that the risk of 
diverting government resources for unintended purposes exists. 
Waste, fraud and abuse may go undetected as critical, the worst 
designation based on the likelihood and impact of the risks. 
Also listed as critical was manipulation of accounting 
information after approval and posting to hide illegal actions.
    It appears that USAID's risk reviews and decision memos 
approving direct assistance also include a number of risk 
mitigation recommendations. I look forward to learning more 
about not only the true extent of the risks to taxpayer 
funding, but whether and how USAID can maintain current policy 
and manage to oversee these programs. I think that is the crux, 
how are we going to manage and oversee these programs, what is 
the risk to taxpayer funding, and whether or not the risks 
outweigh any good that we perceive might come from those 
programs.
    Thank you.
    Mr. Chaffetz. I thank the gentleman.
    By mutual agreement, we are going to hold back inserting 
into the record some of those documents that the gentleman from 
Massachusetts mentioned. It is our intention of the committee 
to make those public and to insert those into the record. But 
we want to give ample time for parties on both sides of the 
aisle to review those documents and make sure that there is no 
sensitive information that would be released that would put 
somebody's individual life in jeopardy. Once we have completed 
that, again, it is the intention of the subcommittee to release 
those documents.
    Now I would like to recognize the gentleman from Florida, 
Mr. Mica.
    Mr. Mica. Thank you again, Mr. Chairman, thank you to our 
ranking member, for holding this important oversight 
subcommittee meeting. This is one of the most important 
responsibilities of Congress, is, in fact, going after waste, 
fraud and abuse. I am going to ask, and I just want to give a 
heads-up to Mr. Sampler and maybe Mr. Sopko, during the last 
hearing I had requested, and I guess it was March 13th, if you 
were aware of any Afghanis who had been prosecuted for missing 
AID funds. To my knowledge, I have not received it. My key 
staffer has not received it. Maybe we have gotten information 
with that list. But I would like that list. If you have people 
working with you today, I want you to find the list, get us 
that information.
    I am interested in who we have gone after and who we have 
prosecuted or those folks that need to be held accountable, are 
held accountable. I think that is an important thing that when 
I go back to the district, when they find that our Afghani 
partners are ripping us off, and this appears to be a 
bottomless pit for the taxpayers, and pouring money into waste, 
fraud and abuse on various Afghan projects, and those who have 
abused their responsibility, and again are not held 
accountable, that is the wrong thing.
    So I will be asking that and I want that information. 
Hopefully some of that information that we could submit in the 
record here today. And again, I thank you, Mr. Chairman, Mr. 
Chaffetz, for holding this hearing. We need to continue to do 
that and hold people accountable to go after the waste, fraud 
and abuse in this important area. Thank you.
    Mr. Chaffetz. I thank the gentleman.
    I remind members that they have seven days to submit 
opening statements for the record.
    I would now like to recognize our panel. Mr. Donald Sampler 
is the assistant to the Administrator of the Office of Afghan 
and Pakistan Affairs at the U.S. Agency for International 
Development. Mr. John Sopko is the Special Inspector General 
for Afghan Reconstruction.
    Pursuant to committee rules, all witnesses are sworn before 
they testify. If you would both please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Chaffetz. Thank you. Let the record reflect that both 
the witnesses answered in the affirmative.
    Again, we appreciate both of you gentlemen being here. Your 
full statements will be inserted into the record. But we will 
allow you time now to give your verbal statements. We will be 
fairly generous on the time.
    Mr. Sampler, we will start with you.

                       WITNESS STATEMENTS

                 STATEMENT OF DONALD L. SAMPLER

    Mr. Sampler. Thank you, Chairman Chaffetz, Ranking Member 
Tierney, members of the subcommittee. I appreciate the 
opportunity to testify before you today and to talk about the 
work of USAID in Afghanistan, and specifically the oversight 
measures we implement to safeguard taxpayer funds while we 
support U.S. national security interests in that country.
    I am honored to represent the 183 American citizens as well 
as third country and Afghan employees of USAID in Afghanistan. 
They implement our programs there under often very difficult 
and personally trying conditions, apart from their families and 
their homes.
    On Saturday, the people of Afghanistan will go to the polls 
to elect a new president. A successful election will be a 
landmark event in Afghanistan. It will be the first transition 
from one democratically-elected president to another. The men 
and women serving the U.S. government in Afghanistan, including 
those of USAID, are working harder than ever and often at 
significant personal risk, to support their Afghan colleagues 
in ensuring the elections are inclusive, fair and transparent.
    I appeared before this subcommittee just under a month ago 
to discuss USAID's foreign assistance program in the context of 
the troop withdrawal. So I will keep my opening remarks very 
short and focus on the subcommittee's primary topic today: 
oversight and accountability for U.S. taxpayer funds.
    USAID takes our responsibility in this regard very 
seriously. We work with our auditors to design very rigorous 
oversight and accountability measures for our programs in 
Afghanistan. Afghanistan is constantly changing and is 
constantly challenging. We have learned and implemented hard 
lessons from the 12 years that we have spent in that country. I 
welcome the opportunity to talk about that during today's 
hearing.
    In that regard, though, I feel like I need to correct the 
record with respect to a USA Today story that came out 
overnight. The story reports that USAID deliberately withheld 
audits from Congress showing that the Afghan government has 
failed to monitor the potential risks of contracting with 
suppliers who may have ties with terrorist organizations. That 
report is false.
    The story also reports that correspondence from the Special 
Inspector General's general counsel suggests that we covered up 
information showing some Afghan ministries lack controls for 
cash and can't track what they own. The allegation that we 
covered up information coming to Congress is false. And I find 
it somewhat offensive.
    As you know, Mr. Chairman, USAID provided to you and your 
staff copies of these assessments almost a year ago. This was 
after the request was made at a hearing. And as per the 
agreement, with these types of documents we offered you and 
your staff full access to unredacted versions of the document 
while providing copies in hard copy that had been lightly 
redacted. As you noted, these redactions blacked out the names 
of people whose lives could be put at risk by their exposure.
    Unfortunately, the USA Today story has now made public 
security vulnerabilities about one of the ministries, in fact, 
that we were concerned about. It is a ministry we chose not to 
work with ultimately.
    I have also been very direct in addressing publicly the 
fact that USAID does face challenges in programming direct 
assistance with Afghan ministries. This is hard, this is 
challenging for us. It has been and it will be.
    But we also employ rigorous risk reduction and risk 
mitigation measures. Again, I look froward to a chance to have 
a discussion about how those work. I have addressed this in 
writing prior to the hearings, in December 2013, before both 
House and Senate committees. And those statements are available 
for the record.
    In conclusion, my written testimony includes details of the 
remarkable progress made in Afghanistan. I will say here only 
that the United Nations has identified Afghanistan as among the 
countries participating in the human development index of 
having made the most progress in the past decade of any country 
in the world on that index.
    Mr. Chairman, USAID is always mindful of the enormous 
sacrifices made by Americans, by our allies and by our Afghan 
partners, to build and secure Afghanistan. We fully understand 
the need for constant vigilance, particularly during this 
delicate period of transition. Since my first visit to 
Afghanistan, and as recently as my visit there last week, I 
have served with the military in Afghanistan, the Department of 
State, the United Nations, a private international NGO and now 
USAID. And I personally lost friends and colleagues to this 
war. So I know first-hand the risk that we are talking about.
    And some of you or some in the audience may remember that 
it was a year ago this weekend when Foreign Service Officer Ann 
Smedinghoff was killed delivering USAID-funded textbooks to a 
school in Zabul Province. So we do understand first-hand the 
consequences and challenges we face. Problems of limited 
capacity in the government of Afghanistan, corruption, will 
certainly exist in Afghanistan for as long as we are engaged 
there.
    There are also problems in many of the other places where 
USAID operates. And they will continue to challenge us. 
However, these problems are not something that should cause us 
to walk way from the national security interests we are 
pursuing. They should be however, cause, for a careful and 
deliberate redoubling of our efforts to prevent the fraud, 
waste and abuse.
    Thank you.
    [Prepared statement of Mr. Sampler follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chaffetz. Thank you.
    Mr. Sopko?

                   STATEMENT OF JOHN F. SOPKO

    Mr. Sopko. Chairman Chaffetz, Ranking Member Tierney, and 
other members of the subcommittee, it is a pleasure to be here 
today to discuss lessons learned from the work of SIGAR and the 
other oversight agencies as we enter this critical year for 
reconstruction of Afghanistan.
    At the end of this year, America's longest war will come to 
an end. Most troops will leave by December. Perhaps only a few 
thousand will remain for training and quick response actions.
    The reconstruction mission, however, is far from over. 
Afghanistan will require significant international assistance 
for years to come. With over $20 billion of the over $100 
billion appropriated by Congress still in the pipeline and 
billions more promised over the next decade, we must learn from 
the growing body of oversight work and apply our very best 
practices to protect the taxpayer.
    As you know, I could not attend our last hearing because I 
was in Afghanistan, where there are high hopes for a successful 
election, bolstered by a stronger than expected showing of the 
Afghan military over the last several months. Yet this optimism 
is tempered with depressing evidence of persistent corruption, 
continued wasteful spending and increased violence.
    I was particularly troubled with the increased violence 
that placed significant restraints on my ability to travel, as 
well as the revelation that the European Union and many of our 
allies no longer trust the UNDP Law and Order Trust Fund's 
internal controls which were designed to protect billions of 
dollars provided to the Afghan policemen's salaries.
    Added to this, I learned of industrial parks developed by 
USAID without affordable and sustainable power, a poorly 
planned and executed soybean project, an Afghan governor 
alleging that USAID's Kandahar food zone contractor is wasting 
money, a proposed new bridging solution to the current bridging 
solution for electricity in Kandahar, based on yet another 
hydroelectric plant and solar power generation, and the Afghan 
financial sector's recent downgrading that may eventually 
result in the international banking community blacklisting it 
in June.
    As in all my trips to Afghanistan, I spent as much time as 
I could away from the embassy and outside of Kabul. Despite the 
best efforts of General Dunford and Ambassador Cunningham, for 
security reasons I could not visit various sites, including a 
proposed USAID power plant in Sheberghan, a TFBSO pipeline 
project connecting that plant to Mazar Sharif, and the actual 
customs facility at Torkham Gate, which is not only our troops' 
main lifeline for supplies but also the most important customs 
post for Afghanistan. By this fall, I learned no American 
official will be able to inspect that important facility.
    Now, not only are the security bubbles collapsing, but they 
now look more like Swiss cheese, with numerous no-travel holes 
due to security threats from insurgents. The extent of 
insurgent control is so substantial they even tax the 
electricity coming from the Kajaki Dam, USAID's signature power 
project in Afghanistan.
    What I saw and heard further reinforced the lessons learned 
discussed in my written statement and ironically, in a 1988 
USAID lessons learned report. Namely, the need to consider 
sustainability, risk mitigation, oversight and sound planning 
before embarking upon a massive reconstruction project in a 
country as poor as Afghanistan.
    Let me say, I share the committee's concerns expressed at 
your last hearing with USAID's current plans to manage and 
oversee more money with fewer people in a far more dangerous 
environment. Recent history warns us that too much money spent 
too quickly with too few safeguards is a recipe for 
reconstruction disaster. Now, as many of you know, in my prior 
life as a prosecutor, I gave many closing arguments to juries 
where I reminded them not to forget their prior experience and 
common sense before entering the jury room for deliberation. 
That is probably why I remained skeptical when USAID claimed at 
the last hearing that no U.S. funds go to the Afghan ministries 
when it gives direct assistance. How can this be so?
    Call it what you like, direct assistance in Afghanistan is 
risky, especially after considering USAID's own assessment of 
the ministries, USAID's waiver of its own internal policies and 
USAID's decision to not mandate 92 percent of its critical 
protections before providing the funds. It should be noted that 
USAID admitted to SIGAR auditors that Afghanistan is the only 
country in the world where it waived its own strict internal 
policies before providing such direct assistance.
    Now, this is in stark contrast to actions taken by our 
allies in Afghanistan. In discussions I had recently in Kabul 
with representatives of other donor countries, I learned that 
they were withhold direct assistance or redirecting it to off-
budget programs because of concerns with internal controls and 
the Afghan government's commitment to the Tokyo Accords.
    Let me state very clearly, SIGAR does not oppose direct 
assistance. However, as we testified before this committee 
almost exactly a year ago, SIGAR believes that direct 
assistance must be conditioned on the Afghan government taking 
serious steps to reduce corruption and ensure vigorous 
oversight of these funds. It should be conditioned on the 
Afghan ministries not only meeting measurable outcomes but also 
providing unfettered and timely access to their books and 
records as well as the project offices, sites and staff.
    More than lip service must be given to accountability, 
oversight and conditionality by the U.S. Government and its 
allies. A system of sticks and carrots in administering direct 
assistance can only be effective if it is credible in the eyes 
of the Afghan government. We and the other donors must speak 
publicly and we must speak with one voice to convince the new 
president of Afghanistan that we mean business. We cannot say 
we are going to impose conditions on only a small fraction of 
our assistance while we continue to provide unfettered billions 
elsewhere.
    In summation, if the Afghan government fails to live up to 
its commitments, then we need to have the courage to say no. 
Anything less will fail to protect our costly investment and 
the hard-earned successes of this, our Country's longest war.
    Thank you very much, and I look forward to your questions.
    [Prepared statement of Mr. Sopko follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chaffetz. Thank you.
    I will now recognize myself for five minutes.
    Mr. Sampler, on November 2nd, 2012, USAID Administrator 
Shaw approved a memo which waived USAID's requirements for 
Afghanistan to meet USAID's internal risk measures before it 
could be eligible for direct assistance. Why the need to waive 
the requirements?
    Mr. Sampler. Thank you for the question, Mr. Chairman, and 
allowing me to clear this up. Our internal mechanisms are 
indeed rigorous. I appreciate the recognition of that fact.
    The regulations we are referring to here are ADS 220. It 
was written as a single unified package of regulations. It 
consists of two stages. Stage one is a rapid assessment that is 
done and includes a number of very high level indicators.
    Mr. Chaffetz. Well, I know what it is and our time is 
short. I want to know why it was waived.
    Mr. Sampler. Because the government-to-government 
engagement in Afghanistan predated the creation of ADS 220. And 
ADS 220 was created in part based on lessons learned in 
Afghanistan.
    Mr. Chaffetz. So let me ask you, well, it seems like the 
oversight requirements got less, not more rigorous. So Mr. 
Sopko, what do you see in this situation?
    Mr. Sopko. We are concerned that they did waive those 
internal controls. But we thought they were very good internal 
controls.
    We actually are concerned for two reasons. Number one, as 
you said, Mr. Chairman, rather than them being more stringent, 
we are now less stringent. Number two, this was a tremendous 
opportunity that we wasted, or I should say AID did. This was a 
tremendous opportunity to really follow through with 
conditionality before we started the direct assistance. We 
could have required them to comply with those internal 
controls. We could have required the Afghans to comply with 
those 333 recommendations by AID to fix internal problems. It 
didn't.
    Mr. Chaffetz. Your office, Mr. Sopko, issued a report on 
this assessment. There were 333 recommended risk mitigation 
measures. USAID only required the implementation of 24 of 
those. And when I asked Mr. Sampler at our last hearing about 
this, and Mr. Sampler, your response was that the finding was 
``true but inaccurate'' and I gave you an opportunity to 
respond. I would like to give Mr. Sopko an opportunity to 
provide his perspective on this.
    Mr. Sopko. I believe our statement is not only true, it was 
accurate. I think Mr. Sampler seems to think that because the 
funds are what he calls projectized, USAID only needs to 
address specific problems that it deems to be directly related 
to each project. USAID has got this wrong. The types of 
problems uncovered in the risk assessments will likely affect 
every project.
    Let me describe for you some of the findings from USAID's 
risk assessments. And I know you have some of them here. If you 
look at the one for the Ministry of Mines, funds being used for 
unintended purposes, that risk is being ignored. Paying higher 
prices for commodities and services to finance kickbacks and 
bribes, that is being ignored. Collusion to skirt liquid 
assets, such as cash, that is being ignored in the Ministry of 
Mines and Petroleum.
    The Ministry of Public Health, of which none of the 
recommendations were implemented by Mr. Sampler and USAID, the 
first one is diverting government resources for unintended 
purposes. That was ignored. Waste, fraud and system abuse may 
go undetected, that was ignored. Losing vital data and 
information, that was ignored. Manipulation of accounting 
information after approval and posting to hide illegal actions, 
that was ignored. Misappropriation of cash arising from payment 
of salaries in cash, that was ignored.
    Mr. Chairman, I could go through ministry after ministry. 
These also were the documents as far as I know were not 
provided to this committee in any form until we provided it to 
them this week. These we believe were very significant.
    The problem is, the reforms they have set up, the plan for 
reforms they have set up deal with external issues. They don't 
really deal with these basic, inherent problems in each of the 
ministries. I am happy to walk through what we have found in 
the Ministry of Public Health when the time allows.
    Mr. Chaffetz. Mr. Sampler?
    Mr. Sampler. Thank you. Where to begin. Nothing was 
ignored. Again, as the Special Inspector General has pointed 
out, these were our risk assessments that were done by our 
mission at our request and for our use.
    Mr. Chaffetz. This idea that you only had to implement 24 
of the 333, is that accurate or inaccurate?
    Mr. Sampler. Over time, they will all be addressed. But to 
begin a project, we only addressed the ones that were necessary 
to safeguard taxpayer resources on that project.
    Mr. Chaffetz. So there were more than 300 that you didn't 
think were important here? The problem is, you give a waiver on 
the front side of it, then we go back and do an assessment, you 
ignore more than 300 of them. The Special Inspector General 
comes in to look at it, an independent third party having a 
look at it and says, this is a huge fundamental problem. We 
have billions of dollars going out the door. And you say, well, 
we will address it down the road. Meanwhile, we have spent over 
$100 billion there and don't see the results we should probably 
get for that money.
    Mr. Sampler. And Congressman, we haven't spent $100 billion 
going out the door on these programs.
    Mr. Chaffetz. We have between what USAID and the Department 
of Defense has done, yes, we have, and other agencies as well.
    Mr. Sampler. The programs that the Special Inspector 
General has cited are very specific programs with very specific 
ministries. And not a dollar flows to any of those accounts 
until safeguards are in place that are adequate to that.
    Mr. Chaffetz. Let's just take that statement. Mr. Sopko, 
what is your assessment of that?
    Mr. Sopko. Unfortunately I have to disagree. And I know my 
time is short. But I would like to talk about how the money 
flows to the Ministry of Public Health.
    Mr. Chaffetz. Please. In agreement here with Mr. Tierney, 
go ahead and let's walk through this and then I will turn the 
time to Mr. Tierney.
    Mr. Sopko. I think we have given you smaller charts, and I 
apologize, that is kind of small, it is hard to read. Comparing 
the different.
    Mr. Chaffetz. The graphics on those maybe that are watching 
on television, which one are you going to go to first?
    Mr. Sopko. I am looking at the PCH payment chart.
    Mr. Chaffetz. That is what is up on the screen.
    Mr. Sopko. The one to the right. That is the smaller one. 
We couldn't afford the big chart.
    [Laughter.]
    Mr. Sopko. That shows how the money flows. And part of it 
is the explanation given that no money actually goes to the 
Afghan ministries. Well, this is how the money flows. This is 
based upon our audits of the Ministry of Public Health and our 
criminal investigation that is ongoing right now.
    So let's not quibble over whether funds don't go or do go 
to the government. The important question is the risk here. As 
you can see from the chart, the Ministry of Public Health, up 
at the top, GCMU requests money from USAID. The Ministry of 
Public Health and the GCMU unit, that is their internal control 
unit that they are very proud of, submits a payment request to 
USAID every 45 days.
    Now, the problem is, there is no support for those 
advances. MOPH and GCMU does not provide any supporting 
documentation to USAID when it requests the advance in money. 
And again, just looking at that chart, we are talking about big 
sums of money. From 2008 to 2014, that is $236 million. And 
they are planning to spend $435 million. That is the estimate 
from 2014 and beyond.
    Then we go to MOPH and GCMU invoices, and what we found in 
our criminal investigation could well be bogus. Although the 
NGOs submit invoices and other supporting documentation to MOPH 
and GCMU, Ernst and Young, the accounting firm that AID hired, 
said that the MOPH does not have a strong monitoring 
capability. Ernst and Young also found that the Ministry of 
Public Health's internal audits are a critical area that needs 
improvement.
    Now, to show how bad things are, USAID has implemented a 
process for reconciling expenditures, not only in MOPH, but all 
of the ministries are giving direct assistance. The results of 
that internal investigation, that internal review, that they 
are holding you out, as protecting the U.S. taxpayer dollar. 
They uncovered a total of $77 in unexplained funds.
    Now, I don't know if Afghanistan is the most honest country 
in the world. But I know we do our own financial audits on U.S. 
firms working in there. And we have identified millions of 
dollars in funds that are suspicious. So I just throw that out 
in consideration for how adequate those reviews are done.
    The money then flows from USAID to a U.S. disbursing 
office, which sends funds to Afghanistan Central Bank. There we 
are, an Afghan ministry, that is the Afghan Central Bank. The 
account is jointly held by the Ministry of Finance, another 
Afghan ministry, and the Ministry of Public Health. And then 
the Afghan government pays the NGO.
    The Afghan Ministry of Finance uses the special account to 
pay the NGOs based on information provided by the Afghan 
Ministry of Public Health. Now, admittedly, USAID has the 
ability to monitor that. That is great. The problem is you are 
dealing with ministries that their own internal auditors said 
manipulate documents.
    So on the one hand, the lower part of the chart, that is 
the money going from AID, the U.S. disbursement office, to the 
Afghanistan bank, that is probably pretty safe. Our problem is 
the upper part of the chart and what eventually happens with 
the money once we give it to the ministries.
    Now, we have been doing a criminal investigation that we 
can't really discuss in great detail. But we have witnesses who 
have worked in their internal unit who indicate that fraudulent 
invoices are being used for closed health facilities, fraud is 
centered around rental vehicles that aren't being used 
properly, that GCMU officials are soliciting bribes from NGOs 
and they are purchasing goods from Iran with U.S. funding.
    The witnesses we are talking to have first-hand knowledge. 
They were inside the ministry. And a key witness who has met 
with my head of investigations, a career FBI man I met almost 
30 years ago, and my deputy IG, who had 38 years of experience, 
all believe the allegations are credible.
    But what they show are weak points if we don't really fix 
the problem. Thank you.
    Mr. Chaffetz. Thank you. I now recognize the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you.
    Mr. Sampler, I want to start back at the very basic part of 
this. Can you articulate for us here, the committee, the United 
States national security interest in the amount of aid going to 
Afghanistan?
    Mr. Sampler. Certainly. I can speak specifically to USAID's 
amount of aid going to Afghanistan.
    Mr. Tierney. I want you to speak to the national interest. 
What is our national security interest in that aid going to 
Afghanistan?
    Mr. Sampler. We have invested 12 years in blood and 
treasure to make sure that there will never be another attack 
on U.S. soil from Afghanistan. Rather than perpetually police a 
foreign state, it is in our best interest to make sure that 
Afghanistan has both the wherewithal, the political will and 
the capacity to police itself.
    Mr. Tierney. Back that up. So one rationale, you are 
saying, is we have invested 12 years, and that is one of our 
national security interests to protect with that investment?
    Mr. Sampler. Correct.
    Mr. Tierney. And then you went on to say, what was the rest 
of that?
    Mr. Sampler. Rather than continue to have to police the 
territory of Afghanistan, it would be better if we stood up a 
government that could do that itself.
    Mr. Tierney. So what would we be policing the territory of 
Afghanistan for?
    Mr. Sampler. We won't.
    Mr. Tierney. But if we didn't do this, what would be being 
forced to police them for?
    Mr. Sampler. Congressman, Afghanistan is a place where it 
is incredibly difficult to detect and prevent organizations 
from setting up training camps.
    Mr. Tierney. Would that be similar to Yemen and Somalia and 
Sudan, Djibouti?
    Mr. Sampler. I have been to Yemen. The others I have not. 
The difference in Yemen, in my experience, is that the 
population of Yemen is spread out so much that no, there are 
not the same numbers of ungoverned spaces, desolate places 
where people just don't go. And you can get away with setting 
up base camps and training camps.
    But certainly in principle, it would be similar to those 
locations.
    Mr. Tierney. All right, I think that is the first base 
question we have to ask here, is why do we continue spending 
money. What is the proportion of total aid from foreign 
countries to Afghanistan, what proportion is being spent by the 
United States versus other nations or other international 
organizations?
    Mr. Sampler. Congressman, I don't know the answer to that.
    Mr. Tierney. Arguably there are some others who have a 
higher national security interest in Afghanistan than the 
United States. I would be interested to know whether or not 
they are paying their proportional share relative to 
everybody's risk and their own risk.
    Mr. Sampler. And I can say, we are certainly the largest 
donor. But I don't know the exact proportion.
    Mr. Tierney. Mr. Sopko, if we were to wake up one morning 
and USAID would decide to implement all of the recommendations 
that their own assessments have put forth and the Inspector 
General's office put forth, what additional resources would the 
USAID offices need?
    Mr. Sopko. We haven't done an assessment on what type of 
resources.
    Mr. Tierney. Would they need more?
    Mr. Sopko. They probably would need more. But a lot of this 
is requiring the Afghan government to implement these changes. 
So we think that is money well spent.
    Mr. Tierney. Do you think the Afghan government in its 
current situation is capable and willing to implement those 
changes?
    Mr. Sopko. Those are two questions. The willingness and the 
capability. We are hopeful the new government will.
    Mr. Tierney. What makes you hopeful of that? Do you know 
the characters or individuals that are involved there? What 
gives you hope?
    Mr. Sopko. My hope is always eternal. This is a chance for 
an election, a new government, we are hoping for the best. I 
can't comment on any individual running for office. I don't 
think it would be proper for me. But we are very hopeful. It 
gives us an opportunity to do that conditionality. It gives us 
that opportunity which we don't have, I believe, with the 
current government.
    Mr. Tierney. And now the capability?
    Mr. Sopko. The capability is something we are going to have 
to work on. But the important thing is, we have training 
missions, AID has done some good work. As a matter of fact, we 
highlighted one of the ministries as being done the right way. 
So obviously they know how to do it. They came up with a plan. 
We are not certain it has been implemented, but at least they 
came up with a plan with DABS. So they know how to do it. And 
we can do it. What we are saying is they should have done it 
for the rest of the ministries before we gave them money.
    Mr. Tierney. Mr. Sampler, is there any going back and 
putting the types of conditionalities that Mr. Sopko speaks to 
on the issuance of aid?
    Mr. Sampler. Congressman, there are two levels of 
conditionality. One is a political level that USAID doesn't 
have. That is a State Department decision about conditionality 
of the assistance to Afghanistan. But I would like to set the 
record straight with respect to the chart.
    Mr. Tierney. I will let you do that in a second. But I want 
to go back to the full answer of my question if I could. So you 
have your own internal process used here, the conditionalities 
that you would generally put on something you say were waived 
on that basis.
    Mr. Sampler. They were not waived.
    Mr. Tierney. They were not waived. All right. So the second 
set, you have your political considerations.
    Mr. Sampler. Yes.
    Mr. Tierney. And then you have your own processes that set 
aside political considerations you would normally put on there?
    Mr. Sampler. Yes.
    Mr. Tierney. So what about those?
    Mr. Sampler. Congressman, we do have a set of safeguards. 
When I say they weren't waived, ADS 220 was waived, but despite 
the waiver, we have implemented safeguards that replicate both 
the letter and intent of what ADS 220 would require.
    Mr. Tierney. Why didn't you just implement ADS 220?
    Mr. Sampler. ADS 220 has two components. The first 
component we couldn't implement. We had already begun the 
engagement and we had moved past that chronologically.
    Mr. Tierney. I'm sorry, let's break it down step by step. 
What is it that you have moved past that you couldn't go back 
and do better?
    Mr. Sampler. An initial comprehensive assessment of things 
like the status of democracy and governance, the status of 
human rights. It is, I call it, well, we will run over the 
world perspective of is this a government where we wish to do 
GDG asesssments.
    Mr. Tierney. Why couldn't you stop at whatever point you 
were at and do that?
    Mr. Sampler. That was a policy decision that was made in 
2001 when we went to Afghanistan. We were already there. This 
is a decision of do we go there or do we go to Yemen or Somalia 
or to some other deserving country to do this work. We made the 
decision that we are in Afghanistan and we made the decision 
that we have to proceed.
    Mr. Tierney. Okay, so you are saying, we have, are you 
saying political actors have?
    Mr. Sampler. The U.S. Government has made the decision that 
we will be there. And USAID is part of that engagement in 
Afghanistan. The second stage is where we do have rigorous 
mechanisms to provide checks and balances. I wouldn't call it 
conditionality, I would just say, we won't do it until these 
things are met.
    Mr. Tierney. That would be pretty conditional.
    Mr. Sampler. And that is a very focused approach to 
individual projects. The risks that we identified when we did 
the initial assessments to these ministries are all credible 
and very important risks, I don't deny that.
    Mr. Tierney. So why not condition every dime that goes out 
on the satisfaction of all those points?
    Mr. Sampler. We prioritize the risks that directly affect 
the projects we are trying to accomplish. If we waited to have 
perfect ministries before we began working on things like 
health care and education, we would not be working on health 
care and education.
    Mr. Tierney. Because you don't think the government would 
respond to do those things, it was not important enough for 
them?
    Mr. Sampler. Congressman, in 2002 when I was in 
Afghanistan----
    Mr. Tierney. Well, it is not 2002 any more, right? It is 
2014. So today, you think putting conditionalities on that that 
the Afghan government isn't interested enough in having those 
things done with our assistance that it would rabidly comply 
with whatever conditionalities we are putting?
    Mr. Sampler. They are and will rapidly comply with the 
things they are capable of doing and the things that they have 
the will to do. So absolutely, they will. But the capacity 
isn't there. These ministries are being built from the ground 
up.
    Mr. Tierney. So it is your assessment, I guess, that 
despite the fact that they don't have the capacity and they may 
not have the will to implement all the things that are 
necessary to be risk-free, you think the risks are worth it? 
You have made that assessment? Somebody in your entity has made 
the assessment that risk is worth just doing these things 
without all assurances in place?
    Mr. Sampler. Congressman, I don't want to accept the way 
that is stated.
    Mr. Tierney. Well, restate it if you want. But you know 
what I am getting at.
    Mr. Sampler. I do. And I will accept that we recognize 
there are risks that we are not mitigating at this point in 
time. Those are risks that must be mitigated before these 
ministries are fully functioning.
    But in the interim, we are projectizing our assistance, on 
very specific things. And the risk associated with that project 
will and must be mitigated before we move any money to that 
ministry.
    Mr. Tierney. But you are not totally mitigating, you 
understand that, and you know that some money is going out the 
door?
    Mr. Sampler. I don't know that you can totally mitigate a 
risk in Afghanistan. We are mitigating the risks specific to a 
project to a level that satisfies us that we can control the 
funds going to that project.
    Mr. Tierney. Mr. Chairman, I know I am over my time and I 
thank you for that. I would like to go back hopefully to some 
sort of question as to how much is that risk, how much is going 
out there, and make an assessment on that.
    Mr. Chaffetz. I concur, thank you very much.
    I now recognize the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. Mr. Inspector General, 
as I recall when you came before us before, you testified that 
we had approximately, I believe the amount was $20 billion 
that, in Afghanistan money that was backed up, that they had 
neither the ability nor capacity to spend or steal, I think it 
was, was that an accurate statement?
    Mr. Sopko. I think you are correct. It is about, actually 
it is more than $20 billion right now, that has been 
appropriated, authorized but not yet spent.
    Mr. Mica. And I think you had said that, then I asked you 
again, was that correct. In fact, later on I called your office 
to make sure I wasn't misquoting you. Because I was just 
stunned by that.
    We spent over $100 billion, the chairman said, $100 billion 
in 10 years, is that about right, Mr. Sampler, in U.S. money in 
AID? I am not talking about military aid, I am talking about 
economic aid.
    Mr. Sampler. That is not correct, Congressman.
    Mr. Mica. How much is it?
    Mr. Sampler. USAID's number is $14.2 billion.
    Mr. Mica. In how many years?
    Mr. Sampler. Since 2001.
    Mr. Sopko. Mr. Mica, if I could just correct. That was the 
amount of money for reconstruction. Now, reconstruction isn't 
just USAID. The bulk of that money is actually DOD.
    Mr. Mica. Okay, but we are approaching $100 billion in 
reconstruction. An that is not military money, is that right?
    Mr. Sopko. We draw the distinction between reconstruction 
and money actually for the war fighting. So reconstruction can 
also be paying the salaries, we are paying the salaries of all 
the soldiers.
    Mr. Mica. So since there is not much infrastructure and not 
much in the way of sophisticated communities that we are 
spending an awful lot of money in a country whose annual 
budget, the federal budget is at $5.7 billion, in that range? 
Anybody know?
    Mr. Sopko. They collect revenue of about $2.2 billion, that 
is how much they collect. They spend a lot more.
    Mr. Mica. All right. Well, they have great models in 
spending more than they take in.
    But my point is again, first of all, I would like to cut 
off all economic aid, reconstruction aid, AID aid, any 
reconstruction money to Afghanistan, period. I would also like 
to know, Mr. Sampler, what have we done, schools? I was over 
there and saw some schools, I saw some roads, I saw some 
bridges, infrastructure. Is that some of what we are doing in 
infrastructure and aid?
    Mr. Sampler. Yes, sir, it is.
    Mr. Mica. Yes. Well, I can tell you, I come from 
communities that could use all of that. In fact, I may have an 
amendment in Appropriations that we open that $20 billion that 
is backed up to my communities. I might get a few votes on 
that. Because we have those same needs in our communities.
    And again, when I have someone charged with oversight who 
tell us they have neither the capacity to spend or steal, that 
gives me great heartburn. I think of people getting up early in 
the morning, going to work and trying to feed their family, pay 
their mortgage and just get by week to week. And we are sending 
that money over there, that drives me bananas.
    I was there, I saw the schools. A school pointed out, I 
went through the school. And it was the community joke. 
Everyone was telling us, the troops were telling us, the locals 
were telling us, we paid five times what we should pay for 
construction of that particular facility. We are getting ripped 
off.
    My question earlier was, have the Afghans held any 
accountable of either violating Afghan law or has the U.S. gone 
after anybody and held them accountable? Do we have that list 
yet?
    Mr. Sopko. Congressman, I don't have the list. We can 
provide that list from what we have done.
    Mr. Mica. That was promised before. That was March 13th. 
And we haven't gotten that I know of.
    Mr. Sopko. I didn't testify then, sir.
    Mr. Mica. Okay, well, whoever came. But I have been 
promised a list, we don't have the list. I want to know, do you 
know if many have been prosecuted within Afghanistan?
    Mr. Sopko. I don't know how to define many. We brought a 
number of investigations, we prosecuted individuals, Afghan 
individuals. The difficulty is, we have to have a nexus to the 
United States, since we can't extradite. But we have turned 
some information over to the Afghan Ministry of Justice and 
they have actually prosecuted some individuals, not many. They 
are the small fry, the prosecutors and police readily admit 
that they can't get us the big fry, the big players. So they 
have done some of that work.
    Mr. Mica. Mr. Sampler wanted to respond.
    Mr. Sampler. If I could just add, we received actually just 
yesterday a press release from our inspector general that an 
Afghan, Abdul Kulial Kaderi, was arrested and charged with 
embezzlement by the Afghan National Security Police for 
attempting to embezzle $539,000 from a partner. Now, I admit 
this with some reservation.
    Mr. Mica. I was told that the theft goes from the lowest 
official to the president's office, the president's family and 
others. And it is widely known that people are ripping off the 
United States through our various aid and assistance programs. 
People have to be held accountable. I think we have to stop 
pouring money into this black hole.
    I yield back. Thank you.
    Mr. Chaffetz. I now recognize the gentlewoman from 
Illinois, Ms. Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Sampler, I would like to draw your attention to a 
February 11th, 2014 Associated Press article that discusses the 
effects of the planned U.S. troop drawdown on the continuing 
U.S. presence in Afghanistan. While the article raises some 
concerns over the drawdown, it does not indicate how much USAID 
programs and projects will be affected.
    The article quotes your thoughts on this transition, and 
according to the article you say as international military 
forces leave, Afghanistan will more closely begin resembling a 
normal operating environment for USAID. Can you explain what 
you mean by a normal operating environment?
    Mr. Sampler. Yes, ma'am. The USAID operating environments 
around the world range from highly permissive to highly non-
permissive environments. I have some experience with Colombia 
where in one country there are places where we can work in 
open, soft-skinned vehicles and in other places where we can't 
go without armed guards.
    So it will resemble a normal operating environment, 
however, in that development decisions will be based on 
development principles and priorities and less focused on 
stabilization priorities. That is the challenge in Afghanistan, 
has been balancing good, sound development principles with the 
requirement to provide stabilization support at the same time. 
That is how it becomes a bit more normal for us.
    Ms. Kelly. Okay. And I know USAID operates in many 
challenging environments, such as Iraq and Pakistan without 
direct military security support, is that correct?
    Mr. Sampler. Yes, ma'am, it is.
    Ms. Kelly. And in these high risk environments, how do you 
ensure the safety of your staff and implementing partner staff?
    Mr. Sampler. It is different in each situation. We have the 
tremendous support of the regional security officers that the 
State Department provides at the embassy. And they assist us, 
in fact they guide us on where we can and can't go. But we do a 
lot of our work in support of local communities and then we are 
able to rely on the local community to assist us in dissuading 
malign actors from interrupting the work. That is one of the 
fundamentals of development.
    But it is different in each case. In parts of Pakistan we 
don't send U.S. citizens there because it is not safe. We again 
rely on third party monitors to observe the work there. In 
other parts of Pakistan, we do engage with U.S. direct hire 
citizens.
    Ms. Kelly. The article also stated that U.S. officials have 
predicted that as a result of the troops drawing down by the 
end of 2014, USAID workers, investigators and auditors will 
only be able to travel to just 21 percent of Afghanistan, down 
from nearly 50 percent of the country in 2009. Is it reasonable 
to assume that as the U.S. military completely withdraws by the 
end of the year, as is now being considered, that areas 
accessible to U.S. personnel, including your workers, will be 
reduced even further? This raises serious concern about 
continued oversight and monitoring and evaluation.
    So how are you going to ensure continued oversight of the 
projects and programs that you have in the field? Can you give 
us a few examples?
    Mr. Sampler. Yes, ma'am. The military drawdown actually 
began for us about 18 months ago. And the military transition 
occurred last June. So we are living now in a situation where 
the U.S. military doesn't provide direct logistical support to 
get us out to any of these sites.
    In terms of the prognosis going forward, it is hard for me 
to predict. I actually hope that five years from now, when we 
visit Afghanistan, it will be a much more permissive place and 
that the new government will have taken the steps necessary to 
make the government one that is respected in all 34 provinces. 
But whether that is true or not, in each of our programs, we 
work with the control or contract officer, who runs that 
program, to find ways for them to get the information they need 
to decide, does this program continue or does it not. That is 
the first point of responsibility. And that individual, a young 
American man or woman, has to decided, do I have enough 
information coming in.
    Part of my job is to create systems that will allow them to 
collect that information. They may collect some of it from the 
local community, they may collect some of it from other 
partners working in the area to say, we drive across that 
bridge every day. We may still collect some of it from the 
international military, where they have flights that overfly or 
they have experience with our projects, they can report back to 
us as well.
    But the question of sufficiency is one that the contract or 
the agreement officer has to make. When she or he feels like 
they don't have enough information, they raise their hand and 
say, we have to stop.
    Ms. Kelly. Are the Afghan nationals who travel to the more 
challenging locations, what about their safety and security?
    Mr. Sampler. There are a couple of different mechanisms for 
moving Afghans around to support these programs. Some do it as 
contractors. And they make a decision, it is their corporate 
entity, whether or not they wish to go to a particular place. 
Some do it as U.S. government foreign service nationals, they 
are employees of our embassy. And the decision is being made at 
this point in time that when an Afghan working for our embassy 
travels, she or he has the same security requirements as I 
have.
    Ms. Kelly. I am out of time. Thank you, I yield back.
    Mr. Chaffetz. I thank the gentlewoman.
    We now recognize the gentleman from Tennessee, Mr. Duncan, 
for five minutes.
    Mr. Duncan. Thank you, Mr. Chairman, and thank you for your 
efforts to stay on top of all this.
    This whole thing is so ridiculous that it is just very, 
very sad. I have read so many examples of just horrendous waste 
over the years in Afghanistan, and a $34 million military 
headquarters built that stands empty because nobody is going to 
use it, totally wasted. NBC News just reported about an Afghan 
prison built with $11 million, an American-funded prison that 
is falling down before it opens.
    Five days ago, Farah Stockman, a reporter for the Boston 
Globe, who served over there with the Massachusetts National 
Guard, wrote this. She said ``Corruption in Afghanistan is now 
considered as great a threat to the country as the Taliban.'' 
Now, this is a report from five days ago. ``But as the U.S. 
military is starting to acknowledge, it was baked into the 
system from the start. We toppled the Taliban in 2001, not with 
massive American firepower, but with proxy warriors, local 
warlords who received cash and weapons in return.''
    And she goes on and says, ``But as the years went by, those 
militia leaders we worked with kept expecting more money, more 
favors, more sweetheart deals. Even Karzai himself is reported 
to have accepted suitcases full of cash. Is it any wonder that 
the country has turned into a place where loyalty is sold to 
the highest bidder?''
    I am wondering, I heard one time about, in one of our 
hearings a few years ago, about plane loads of cash being flown 
over to Afghanistan. Mr. Sopko, are we still dealing a lot in 
cash over in Afghanistan, to your knowledge?
    Mr. Sopko. To my knowledge, there is still some cash being 
used. That causes some concerns. As a matter of fact, the 
ministerial asesssments that we have alluded to in the past 
have highlighted problems of cash in the individual ministries.
    We have tried to get away from cash in some of our 
programs, but it still does exist and it is a problem.
    Mr. Duncan. This $100 billion figure that Mr. Mica referred 
to, I remember seeing that in an article I think last July. And 
of course, we have spent another billion or two or more since 
then. So we keep adding to it.
    But I saw in an interview you gave a few days ago, there 
was some coverage in the Washington Post, to talk about a very 
large trust fund being used to pay the salaries of the Afghan 
national police. And you say in this interview that we just 
uncovered some allegations about the Afghan national police and 
there are certain funds or monies taken out of the police 
salaries every month that we don't know where the money went, 
nor do our allies.
    How large is this trust fund and how much are we spending 
on the Afghan national police and are we still not able to 
account for is it a small percentage, large percentage of it? 
What is the story on that?
    Mr. Sopko. Just so you understand, the trust fund reference 
there is the Law and Order Trust Fund for Afghanistan. It is 
managed by the United Nations on behalf of the donors. We 
contribute a significant amount of money of that, but so does 
the European Union and all of our other allies. They actually 
contribute more. We basically pay all the salaries of all the 
police and all the soldiers and all their support staff. So we 
are talking about billions of dollars.
    What I was alluding to is information we uncovered that the 
European Union was so concerned about the internal controls 
based upon audits that they had done that they were concerned 
that the money, particularly, was going to ghost workers. So we 
are following up on that. We brought that information to the 
attention of DOD on my last trip back in July, or I should say 
November. They weren't aware of it, but they followed up and 
they have been very aggressive. They are concerned, too.
    In the course of my latest trip there and meetings with the 
European Union and other of our allies, a number of other 
issues arose, including a 2.5 percent, so this is 2.5 percent 
of all the salaries, money was taken out to pay for something, 
we don't even know exactly what it is. But they can't find that 
amount of money. So we are talking about millions of dollars if 
you multiply that by the number of police.
    And there is a 5 percent fund taken out, a 5 percent 
deduction taken out going toward retirements. Apparently the UN 
can't find where that money ended up.
    Then there is also the question of approximately 1,000 
generals who are not supposed to be paid who are getting 
salaries. So a number of issues, ghost workers, the 2.5 
percent, the 5 percent pension fund and the unauthorized 
generals, to cite Senator Dirksen, after a while, we are 
talking real money. And the problem is the internal controls 
are so bad that there may be some serious money lost. To not 
only us, but also our allies.
    Mr. Duncan. My time is up, but let me just say this. There 
was a column in the Politico a few weeks ago by Roger Simon in 
which he says the Administration has a plan to keep anywhere 
from 10,000 to 16,000 troops in Afghanistan until at least 2024 
at a cost of mega, mega billions. I think that is very, very 
sad. I yield back. Thank you, Mr. Chairman.
    Mr. Chaffetz. I thank the gentleman, and I appreciate your 
concern about this issue and our persistence on it.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney, for five minutes.
    Mrs. Maloney. I thank the chairman and the ranking member 
for calling this important hearing on tracking taxpayer money. 
But on my visit to Afghanistan, right outside of the 
headquarters there was a memorial to 9/11 and all those that 
died. That is the district I am privileged to represent.
    So we are there to combat terrorism. And I want to mention 
something very positive that USAID has done. I strongly believe 
the best way to fight terrorism is an educated population, 
particularly a female population. And when you went there, no 
women were going to school. Six hundred schools have been 
built, teachers have been trained. And of the 8 million 
students now in USAID-supported schools, a third of them are 
women. I would say that that is a very positive contribution to 
combating terrorism. And I want to thank you for that.
    But corruption should not be tolerated. One of these 
reports I was reading, the transparency international 
corruption perception index ranked Afghanistan as the most 
corrupt country in the world alongside North Korea and Somalia. 
That is certainly not good company and a terrible, terrible tab 
or brand on them.
    So I would like to first ask Mr. Sopko and Mr. Sampler, do 
you agree with this assessment? Is it the most corrupt country 
in the world, along with North Korea and Somalia?
    Mr. Sampler. Ma'am, thank you for your comments about USAID 
and our role supporting women. I will update your information.
    Mrs. Maloney. And education in general.
    Mr. Sampler. And education in general. One of the things 
that I find encouraging in Afghanistan is that now, after 12 
years of supporting education, we are seeing the students who 
have been educated in Afghanistan moving to vocational training 
and universities. We now have about 40,000 women attending 
either vocational training or universities, which represents 
about 20 percent of the total.
    So it shows that with persistence and with strategic 
patience, these things do actually make progress.
    Mrs. Maloney. I would just like to say, I think that is 
wonderful. I have constituents who had relatives who were shot 
and killed because they went to school, women. And I really do 
think there is a correlation between an educated population, 
particularly women, in countries where women are educated, the 
degree of terrorism is not there, because the population 
combats it with their government. So I think that is an 
important aspect.
    In fact, I would like to see, Mr. Chairman, a hearing on 
the correlation between an educated population and educated 
women, where women are treated like people and allowed to be 
educated, and the ability of that country to combat terrorism. 
I think it is an important aspect that hasn't been looked at.
    But that is not the purpose of this hearing. So I would 
like to hear your assessment of the corruption and what you 
have put in place to combat it.
    Mr. Sampler. Yes, ma'am. To the comparison with North Korea 
and Somalia, I can't comment. There is no question that 
Afghanistan is the most corrupt place that I have ever worked. 
The challenge for USAID is helping Afghanistan build 
institutions that can fight corruption and can withstand 
corruption when the political will is there, so that they will 
be able, on their own, to eliminate corruption within their 
government.
    The challenge for me and for USAID specifically is making 
sure that our programs are able to operate in Afghanistan 
without being subject to the corruption that is endemic in the 
government and in society.
    Mrs. Maloney. I would like to add to that. I share the 
concerns of my friends on the other side of the aisle that we 
need to combat it, and that no American aid should be used in 
any corrupt area.
    But the Administration and the international community 
pledged roughly 50 percent of a development aid to Afghanistan 
as direct assistance. And it conditioned this assistance on 
progress toward combating corruption. So I would like, Mr. 
Sampler, for you to build on one of the comments that you made 
at the last subcommittee hearing on this topic. You said that 
USAID released $30 million out of $75 million available to the 
World Bank's Afghan Reconstruction Trust because the Afghan 
government had achieved certain benchmarks.
    Can you tell us what reform goals were put in place and 
what reform goals were met? And certainly, Mr. Sopko, if you 
could help clarify that, too. But first, Mr. Sampler, then Mr. 
Sopko.
    Mr. Sampler. Yes, ma'am. At the senior officials' meeting 
in Kabul last year, I announced that there would be $75 million 
that would be an incentive fund to encourage the Afghans to 
make some politically difficult decisions with respect to 
progress within the construct of their government institutions. 
There were five general categories for those funds. And it has 
been our determination last month that the Afghans had met the 
goals we set in two of those particular categories.
    So of five different funds, of about $15 million each, and 
we have awarded them $30 million of the incentive fund. This is 
important to the government, because the funds are sent in such 
a way that they can be used not specifically for a general, 
these are not projectized funds in the same way. They are 
overseen and they are controlled, but it is an area, it is a 
type of funding that the minister of finance is very attracted 
to.
    The first and most specific and most time sensitive of 
those upgrades and improvements in Afghan government had to do 
with the elections. There were some very difficult decisions 
with respect to the independent election commission and the 
appointment of commissioners. There were some very difficult 
challenges with respect to who will oversee the election 
complaints commission and who gets to adjudicate disputes after 
the elections happen on Saturday. We wanted those decisions to 
be made in a particular way, in a way that was transparent. And 
they were. The governor of Afghanistan, after some wrangling, 
made those decisions. And I believe the incentive fund was part 
of that.
    Separate from that, at the other end of the spectrum, with 
respect to the Ministry of Mines and Petroleum, we have asked 
that a minerals law or a mining law be passed in Afghanistan 
that would keep Afghanistan from falling down the mineral 
wealth trap some other countries have had, or problem that some 
other countries have had.
    That has not yet been done. But the mining law has been 
proposed two or three times by parliament, President Karzai at 
several different points said that he would do this by fiat. It 
hasn't been done. So those funds have been taken off the table.
    Our greatest hope with respect to the challenges and the 
changes that you are alluding to with respect to corruption and 
building institutions in the government of Afghanistan have to 
do with the election. In some period of weeks, there will be a 
new president of Afghanistan. We hope and expect that he will 
appoint an attorney general who will end the endemic corruption 
in Afghanistan or at least begin to end the endemic corruption. 
And we hope that he will appoint ministers and deputy ministers 
who share that vision.
    Mrs. Maloney. My time is expired. Thank you for the goals 
you have reached.
    Mr. Chaffetz. Thank you. We will now recognize the 
gentleman from Vermont, Mr. Welch, for five minutes.
    Mr. Welch. Thank you very much. I again want to thank our 
chairman and ranking member for pursuing this together for 
several years now.
    The turning point for me on this came when I was at a 
meeting in Kabul with attorneys that had been sent over to 
Afghanistan to help train Afghanis how to detect and stop 
corruption. I asked them, how is the program going. And they 
told me they had to end it. The reason they ended it is because 
in training people how to detect corruption, they used the 
information to do corruption. And that is literally the 
frustration that we are having.
    Now, Congress cooked up this policy in Afghanistan and 
supported the nation-building. And you guys are trying to deal 
with it, AID, I so admire the work you do, and we have made a 
very tough job, you do it. In a way you are like our soldiers, 
we give you the mission and you do your best to do it.
    Your office has been fantastic, just giving us the lay of 
the land and what the facts are. But I think a lot of us are 
just wondering whether there is any confidence that we can 
have, on behalf of being custodians of the taxpayer money, that 
it won't go south.
    Just a couple of things I will ask about. The bridge, I 
guess, Mr. Sopko, you were talking about $300 million or so 
that has been spent on the bridge. What is the status of that?
    Mr. Sopko. Are you talking about the bridging solution?
    Mr. Welch. Yes.
    Mr. Sopko. Well, the bottom line is because we are not 
getting electric power out of Kajaki like we want, we of course 
created these diesel generators at Kandahar. And I was told by 
DABS, which is the electric utility company, as well as USAID 
officials, as well as the general who is paying the checks for 
the fuel, that they are going to stop soon. And we don't have a 
real solution for it.
    So they came up with a new solution, which I am encouraged 
by, except it is talking about another hydroelectric plant and 
it is talking about solar power as the answer to the first 
bridging solution, which they can't afford any more.
    Mr. Welch. So we will have gone from spending hundreds of 
millions of dollars at the Kajaki Dam that failed to hundreds 
of millions of dollars in this bridging project that looks like 
it is going to fail to yet another new way to spend more money 
without any confidence that it will work.
    Mr. Sopko. The problem here with the Kajaki Dam is that we 
are still working on it, and starting back in the 1950s. I 
think building the pyramids in Giza was faster. There is no 
likelihood, and with all due respect to my colleague, that 
their new solution is going to end up with the third turbine 
finally in.
    And even if the third turbine is put in, that still doesn't 
guarantee that you are going to have enough power in Kandahar, 
which is significant.
    Mr. Welch. I get it. This is amazing. I think what I am 
hearing from my colleagues is whether we just have to call the 
question at a certain point. It is realistic for the Congress 
to appropriate money, and then ask AID or the military related 
reconstruction, to do the impossible when the structural 
foundations of Afghanistan are based on the benefits of 
corruption.
    And let me just ask you a question. Because whatever 
oversight we have, I don't have confidence that it can work. 
They will find ways around it. Would it make sense for us as a 
condition of releasing any money to require Afghanistan to put 
its own money into the project, 10 percent, 15 percent, or 20 
or 25 percent? On the theory that the only way we can have any 
confidence that there will be an incentive on the part of the 
Afghan government to not steal the money is to require them to 
have some skin in the game themselves?
    I will start with you, Mr. Sampler.
    Mr. Sampler. Congressman, thank you. With respect to 
energy, which is one of the areas that actually is the least 
corrupt and is actually making the most progress, DABS, the 
public utility, is working to install the turbine in Kajaki. 
Mr. Samadi told me on my trip last week that what he intends to 
do with the diesel program in Kandahar is to do what he says he 
has done in 12 other provinces where they use standalone diesel 
generators, and that is to set up a cost system where it will 
be paid for. The community that gets the electricity will pay 
for the electricity.
    He has some track record for being able to do that. He went 
from receiving subsidies of over $60 million a year to this 
year receiving no subsidies. And in fact, he has collected from 
the users of electricity enough money to now buy electricity 
from other countries rather than generate it, because they 
don't yet have the generation.
    Your notion of having Afghan skin in the game is exactly 
the right thing to do. And I think what Mr. Samadi is proposing 
is to even take it a step lower, so that local communities have 
skin in the game. It will be their money that pays for these 
diesel generators and pays for the power that they actually 
consume. So yes.
    Mr. Sopko. Can I respond? If it is okay, Mr. Chairman. The 
problem with that is, I was down in Kandahar and got a briefing 
from the DABS officials down there. And there is no way, they 
told us, they can pay for the diesel. So there is a reality, 
you have to get out of the embassy and get down there. They are 
saying, we can't charge the fees because the law is set so low 
that we cant collect the fees.
    Their other concern is that the power will go out. They are 
saying they will be able to do another hydroelectric plant and 
come up with solar power generation within the year. Because 
within the year, we stop subsidizing them. And that is the 
whole problem with, and I think it is an excellent point, Mr. 
Welch, and we are happy to introduce the briefing slides from 
them explaining why they need this solution because they can't 
afford the diesel fuel.
    The whole problem with putting skin in the game, Mr. Welch, 
is they only have $2 billion they collect. The game is billions 
more. We overbuilt for Afghanistan.
    Mr. Welch. We overbuilt and they don't have a tax system.
    Mr. Sopko. And they don't have the sustainability, the 
capability to sustain what we gave them. In my statement 
itself, USAID even admits that there are going to structures, 
things that we are just going to have to abandon because the 
Afghans can't afford to maintain them.
    So that is the problem from poor planning up front and 
putting too much money too fast in a country that is too poor 
to handle it.
    Mr. Welch. Thank you. Thank you, Mr. Chairman.
    Mr. Chaffetz. I thank the gentleman.
    Mr. Sampler, do you care to expand on that? That is the 
concern, we are out there spending billions of dollars for 
things they can't maintain.
    Mr. Sampler. It is easy at this point in the process to 
armchair quarterback decisions that were made eight or ten 
years ago. So I don't accept the notion that this was poor 
planning. It was wartime contracting and war planning.
    Mr. Chaffetz. But wait a second. We have spent $102 
billion, and now we are going to spend more money then ever, we 
are accelerating the spending as we are drawing down the 
troops.
    Mr. Sampler. Congressman, I don't know that I accept the 
notion that we are accelerating spending. USAID is not 
accelerating our spending.
    Mr. Chaffetz. The overall spending, which includes USAID, 
Mr. Sopko, what is the number we have that you said has been 
appropriated?
    Mr. Sopko. It is $22 billion, although Congress did cut 
some of the money, the end result is the amount of money 
sitting there that has been authorized and appropriated but not 
spent has actually increased.
    Mr. Sampler. Your point, though, your question, 
Congressman, is what are we doing to make sure that the Afghans 
can maintain the work that has been done. The environment from 
2003 or 2004 or 2005 up through 2008, 2009 and even last year 
has been one focused on stabilization.
    Mr. Chaffetz. Well, we are talking about moving forward 
here. You say it is easy to be that quarterback on the 
armchair. But you have to look back, you have to understand 
what we have done and the mistakes that we have made.
    One of the key concerns, one of my biggest concerns is that 
we have U.S. money flowing to the very terrorists that wish to 
do us harm. I believe that everybody in USAID and the U.S. 
government wants to do good and help the basic Afghan person 
who is probably a good and decent person. But the reality is 
the terrorists know how to get this money from us. And they 
have been getting that money. That was highlighted in the 
report that my colleague here, Mr. Tierney, Mr. Flake, others 
had done through the host nation trucking. It was a great 
report.
    But we have to learn from that. You take issue with this 
USA Today article that came out. You said it was false. Mr. 
Sopko is quoted in there as saying USAID kept this information 
from Congress and the American people.
    Mr. Sampler. That is correct, Congressman. We have not 
withheld any information from your committee or any other 
committee in Congress.
    Mr. Chaffetz. Mr. Sopko, do you care to comment on this USA 
Today article?
    Mr. Sopko. I would start with, Mr. Chairman, did you get 
copies of the stage two assessments a year ago when you wanted 
all this information on reconstruction, or did you have to wait 
until I provided it to you?
    Mr. Chaffetz. We had to have a hearing and we had to insist 
that we get the information. We had to instruct and hope and 
push the Inspector General to be able to get that information.
    There is a difference in camera review and giving this 
information to Congress. As is pointed out in this article, a 
KPMG audit of the Ministry of Rural Rehabilitation and 
Development says ``A mechanism has not been developed for 
screening of beneficiaries for the possible links with 
terrorist organizations before signing contracts or providing 
funds to the suppliers.''
    This is an independent KPMG assessment. But the next 
sentence in this article, a copy of USAID's version of the same 
document shows that mentions to links of terrorism were blocked 
out.
    Now, that is just projecting against something that is 
embarrassing. It is not protecting some individual from life 
and limb. And that is the concern.
    Mr. Sopko?
    Mr. Sopko. Mr. Chairman, can I add a little bit, and I am 
happy to put a chronology in, the reason we were concerned is, 
back in May, if you recall, you originally asked for these 
documents you had problems getting. We had problems getting 
them. And I don't want to spend too much time on chronology, we 
originally were told, when I first found out about these 
documents, these assessments, that they were an embarrassment 
and we couldn't get them. We had to give them, AID had to give 
them to the Afghan ministry, and this is what I was told by AID 
officials in Kabul, so they could review them, excise any of 
the embarrassing material. Nobody raised any concern about 
people getting hurt. It was embarrassment.
    Eventually you asked the AID IG to get them. Eventually he 
couldn't. We were contacted back in April of 2013 by the USAID 
Inspector General's general counsel, the USAID general counsel, 
a State Department legal advisor, requesting that SIGAR not 
provide copies of the ministerial assessments to any 
Congressional committee or member of Congress. SIGAR's general 
counsel informed USAID and SIGAR that we had not received the 
Congressional request but we would, and we intended, to provide 
them.
    On May 1st, SIGAR was told that USAID provided redacted 
copies of the ministerial assessments to the House Oversight 
Committee. OGR staff then requested the unredacted versions 
from us. At that time, we received from USAID copies of the 
redacted copies that you got, and that is how we were able to 
do the comparison when later we got a FOIA.
    Now, what is of great concern to me is, not only were these 
things about terrorism excised. Now remember, the allegation 
was, this was to protect individuals. We were going to delete 
individuals' names all the time. But also what was deleted was 
the fact that some of the ministries lacked controls on 
management of cash, I don't know how that implicates any 
security issue. And that they could not keep track of fixed 
assets and were using pirated copies of Microsoft software. And 
we are happy to give you, and it is listed in the letter my 
general counsel sent, about the other things that were 
redacted.
    The thing is, these are the redacted copies that we got 
from the AID general counsel's office. These were the documents 
they gave to you. And I would add, my understanding, and only 
you can answer, Mr. Chairman, is did you get these? Which are 
far more damning and far more important to your work.
    The further question I would ask is, did the appropriating 
committees get these? Did the other authorizing committees that 
are interested? Remember, the language requiring these 
assessments was put into multiple appropriations bills because 
the appropriators and the authorizers were concerned about the 
loss of direct assistance money in Afghanistan.
    Now, we were told during our audit by USAID headquarters 
officials they had never even seen the stage two assessments. 
So we doubt seriously that they gave them to the Hill.
    Mr. Chaffetz. And this is the concern, that we are having 
to pry this information out, that it is not being forthright in 
giving us that information.
    Mr. Sopko, you mentioned that you believe that you have 
come across some funds that are actually being used or going to 
Iran. Can you expand on that?
    Mr. Sopko. We have an ongoing criminal investigation, as I 
told you, on the Ministry of Public Health. And specifically, 
the criminality is focused in the system that AID praises as 
the great protection of our assets. Allegations we have 
received, and I can't really go into too much detail, is that 
money is being diverted to go to purchase items from Iran.
    Mr. Chaffetz. Do you have a sense, can we get a sense of 
the dollar amount that we are talking about here?
    Mr. Sopko. At this point I couldn't tell you. I would have 
to talk to my investigators.
    Mr. Chaffetz. Have you come across any other allegations 
that money is being diverted to Iran? I am specifically 
concerned about the PLO, the petroleum oil lubricants.
    Mr. Sopko. We haven't gotten any new information on that, 
but as I told you the last time I testified, we have not, and 
by we I mean the U.S. government, has not instituted the real 
corrections they need to ensure that we are not buying fuel 
from Iran. And that is because of expense. So yes, we could be 
buying Iranian fuel to support our troops in Afghanistan.
    Mr. Chaffetz. I am well over the time. I am going to turn 
the time to my colleague, the ranking member, Mr. Tierney.
    Mr. Tierney. Thank you. First of all, let me just start by 
saying, Mr. Chairman, I assume that we should tell Mr. Sampler 
now that as we review the stage two assessments and other 
assessments with regard to the redactions on that or whatever, 
does the chairman agree that Mr. Sampler has an opportunity 
between now and then to submit a blow by blow description of 
why each redaction was made. That would help you answer the 
issues that Mr. Sopko raised. And we will consider those. But 
it is concerning to listen to those considerations. And if you 
think of some reason why the comments or the statements that 
Mr. Sopko said were redacted, then tell us.
    Mr. Chaffetz. Oh, absolutely. If the gentleman would yield, 
the spirit here is to get to your full and complete perspective 
on this. But the allegations are pretty serious. It has been 
going on for close to a year. We are just trying to get the 
clean, unfettered information and of course, we will work in a 
bipartisan way and allow you to comment on those as well.
    Mr. Tierney. Exactly. Now, to both of the witnesses, has 
anybody ever assessed whether or not the country of Afghanistan 
is going to have a revenue trajectory other than foreign aid 
that is going to enable it to cover its general operating costs 
and when?
    Mr. Sopko. The World Bank has done that assessment. I 
believe we reference it in our statement. And it is not a 
pretty picture. I think we are talking about 30, 40, 50 years 
out. And so the discussion about minerals, we are talking 50 
years out, 70 years out, assuming the best. So in all 
likelihood they will be a client state for years to come.
    Mr. Tierney. So the more infrastructure that aid from any 
source helps to build, the more operating and maintenance costs 
accrue to a country that doesn't have revenue to cover its 
existing operation and maintenance costs, never mind additional 
ones, is that correct?
    Mr. Sopko. That is very correct, and we reference that 
with, unfortunately, gory detail with all the audits, and we 
are happy to provide others about roads that have no 
sustainability, buses that have no sustainability, you name it. 
They can't sustain it.
    Mr. Tierney. Can either of you identify for me any other 
nations in the world that are substantially operated only by 
virtue of foreign assistance and that would not be able to be 
liquid in and of themselves?
    Mr. Sopko. I only cover Afghanistan. I will turn to my 
colleague, here.
    Mr. Sampler. Congressman, most of my work has been in 
failed states, that for a number of years after emerging from 
failed state status are client state and continue to be for 
some period of time.
    Mr. Tierney. Has that period ever been 40, 50 years out?
    Mr. Sampler. Congressman, I don't accept the notion of 40 
or 50. I don't have an alternative to it. It is predicting the 
future. Certainly more than a decade there will be some form of 
client state.
    But the notion that infrastructure should be subsequent to 
being able to be self-sustaining is, I think, flawed.
    Mr. Tierney. I am not sure that anybody made that case. 
They are just making the case that as it happens, it increases 
the cost of maintenance and operation.
    Mr. Sampler. It also increases economic opportunity and 
growth, which pays for that.
    Mr. Tierney. That would depend on whether or not it was 
well-constructed and actually worked.
    Mr. Sampler. And it does work, Mr. Congressman.
    Mr. Tierney. Well, let's see whether or not the Kabul power 
plant actually works and has the fuel necessary to do that. Is 
the government subsidy from Afghanistan, I understand it was 
supposed to expire this month, last month, actually. What 
happened with that, Mr. Sopko?
    Mr. Sopko. I don't have the answer to that. Maybe Mr. 
Sampler does.
    Mr. Tierney. Did the Afghan subsidy to the power plant 
expire last month?
    Mr. Sampler. They have stopped subsidizing DABS, yes.
    Mr. Tierney. So who is paying for the fuel now?
    Mr. Sampler. In Kabul, the fuel that the Tarakhil power 
plant generates is paid for from electrical subscribers in 
Kabul.
    Mr. Tierney. And how about the rest of the patrons that are 
supposed to be served by it?
    Mr. Sampler. I am sorry, the rest?
    Mr. Tierney. More than just Kabul is supposed to be served 
by that power plant, correct?
    Mr. Sampler. The 105 some odd megawatts that it generates 
is generated to what they call an island of distribution. And 
that island of distribution pays for that power. And Mr. Samadi 
tells me that they have done that in 12 other provinces, 
smaller places, where they have diesel generators providing 
power.
    But it is important to note that Tarakhil is not meant to 
provide regular, routine power. As Samadi acknowledges, it is 
more expensive than importing electricity. He calls it a 
peaking plant. I would call it reserve power. Just last week, 
the power line coming from the north into Kabul, snowfall 
shorted out the power line and they lost it. But rather than 
have brownouts and blackouts in Kabul, Tarakhil fired up and 
they run this expensive diesel.
    But Mr. Samadi, who is the CEO of DABS, assures me that 
they pay for it out of the revenues they collect.
    Mr. Tierney. Have you been able to verify that?
    Mr. Sampler. I have been out to Tarakhil a number of times 
and in fact, stood by a generator when it fired up without me 
knowing it was happening. They do turn it on and they do turn 
it off.
    Mr. Tierney. An awareness issue, right?
    Mr. Sampler. Right. But I can't confirm that the payments 
they make cover the cost of diesel. I can take that as a QFR 
and come back.
    Mr. Tierney. Thank you. Thank you, Mr. Chairman.
    Mr. Chaffetz. The gentleman from Vermont, Mr. Welch.
    Mr. Welch. I would like to get back to what are some 
practical steps we can do that will work. As a precondition of 
having aid, number one, shouldn't there be some confidence 
there will be a sustainable revenue system? And my 
understanding is Afghanistan is taking steps toward doing that.
    And then number two, should we condition aid on Afghanistan 
putting their own money in a project? Both of those would go 
hand in hand because if they are going to put money in a 
project, they have a way to raise money and they do have an 
economy.
    So I would really appreciate your opinion as to whether 
those might be simple ways to try to get greater 
accountability. A, do we want it as a condition that they 
establish a revenue system and B, do they have to put money in 
any project? I will start with you, Mr. Sampler.
    Mr. Sampler. Certainly. The World Bank actually has 
incentive programs that are driven to encourage the Afghans to 
generate revenue streams. USAID has programs in place, the 
Afghan Trade and Revenue program is an example. It specifically 
focuses on allowing the Afghans to collect tariffs at customs 
stations and makes sure that the money goes into the coffers at 
Afghan banks.
    Mr. Welch. My question is, is it being done? In other 
words, we can conceive of these things, but there are so many 
impediments on a practical level in a country such as 
Afghanistan to do things that haven't been part of their 
tradition.
    Mr. Sampler. Right.
    Mr. Welch. What I understood from Mr. Sopko is that on the 
other hand, if we come in and put in these huge projects that 
have as an unstated but necessary assumption a local capacity 
for raising revenue to sustain it, for having engineering 
expertise to fix it, all of these things that actually don't 
exist, then we are just ships passing in the night. And a lot 
of this is, from my perspective, guaranteed failure even before 
you get to the corruption.
    So my view is that there has to be something really simple 
that takes into account the practical limitations of the 
Afghani revenue stream, the practical limitations of their 
skill test, and then have a right size approach which would be 
intended to actually have a chance at working.
    Mr. Sopko. Mr. Welch, I think you have hit on it. And they 
key thing is conditionality. It is great that Mr. Sampler is 
talking about, we are going to help raise revenue at the 
border. I just noted in my speech, I just came back from 
Torkham Gate, which is the largest customs post. And we can't 
get to it any more. No American will be able to get to Torkham 
Gate to check and see if they are stealing half of the revenue. 
And that is the problem of corruption.
    We know it is endemic. We have to build programs that deal 
with it. And that is why conditionality. And I applaud Mr. 
Sampler and USAID for their conditioning, I believe it was, $30 
million held back. Unfortunately, it was on a $17 billion 
program. So the conditionality has to be not just on an 
incentive program, it has to be with one voice, with our 
allies, to condition putting the internal controls in, putting 
the asesssments in, fighting the corruption.
    On the corruption issue, we still have a dysfunctional 
judiciary over there. We have never conditioned on that. We 
have a dysfunctional financial system, and I know the chairman 
is very interested in the Kabul bank issue.
    Well, FATF, the Financial Action Task Force, just came in 
and downgraded, downgraded Afghanistan and if they continue to 
downgrade it because they don't have a money-laundering 
statute, just like Mr. Sampler said, they still don't have that 
statute dealing with minerals.
    What will happen in June is, they will be blacklisted, 
which could have tremendous implications to any corresponding 
bank. If you don't have a banking system, you are not going to 
have financial investment. So the thing is, you have to 
prioritize, our U.S. government, not just AID, it is everyone, 
prioritize the conditionality and fixing these issues. We 
still, and I will end by this, Mr. Welch, we still don't have a 
coordinated anti-corruption strategy for the U.S. government. 
We have highlighted that in two audits. If we are really 
serious about corruption, why don't we have a strategy?
    Mr. Welch. Here would be what I would find some comfort in. 
If the two of you had an agreement that could be stated on one 
piece of paper that said what the conditions were, or the 
preconditions really, is it a revenue stream, is it putting 
money into the account at the same time we put money in an 
account? But things that are up front that are very simple to 
measure and don't depend on trust, they really just depend on 
checking the bank account.
    Mr. Sopko. We do that in every audit we have. We have 
recommendations. The problem is, I have to be independent. So I 
can't design a program, as much as I would like to, with Mr. 
Sampler. Because then I can't come back in and audit it. So by 
definition I can't design programs.
    But we have many recommendations, and if you look at my 
statement, Congressman, there are like 40 or 50 audits done by 
us, the AID IG, the State IG, the DOD IG, and the GAO with 
tremendous recommendations that USAID and the rest of the 
government should follow.
    Mr. Welch. I just want to say one last thing. Mr. Sampler, 
I really appreciate the work that you guys do, USAID. You are 
just dealing with an incredibly difficult situation. And you 
are on the receiving end of a lot of the frustration we have. 
But a lot of us are responsible for some of the policies that 
got us to where we are.
    So I just want to say a sincere thank you for your service 
and to you as well. We are not beating up on you as much, not 
today.
    [Laughter.]
    Mr. Chaffetz. The gentleman yields back.
    I do have a few more questions and I appreciate the 
indulgence of my colleagues here, to go through some of these. 
It have looked at maps, and it is hard not to do it with the 
maps, but one of the biggest concerns is the diminished 
security situation and our ability to get out, review these 
projects, see these projects. Remind me again what percentage 
of the areas, do we have percentages or some sort of metrics to 
try to quantify, we are investing, spending money on all these 
projects in various parts of the country, we can't get out and 
see them.
    Mr. Sopko. Mr. Chairman, it is hard to do that. Because we 
don't know the number of troops we are going to have. We also 
don't know the number of enduring bases. So we are guessing. 
But at our guesstimate, I think we are saying less than 20 
percent of the country.
    Now, what I also mentioned is, that is assuming the very 
best. That is assuming good weather, we can get out there. The 
problem with those circles, as I indicated, is they are now 
turning into Swiss cheese. I have auditors and inspectors who 
can no longer travel to certain sites, even inside the bubbles, 
because they have to go down a road where there is an Afghan 
security base and booth and they check them out. The next 
kilometer down, there is an insurgency toll booth and base. So 
we can't go there.
    That is the problem. Bottom line is it is getting harder.
    Mr. Chaffetz. Is there any other update? I appreciate your 
bringing up the information on the Kabul bank. Do you have 
anything else you can share with us regarding the Kabul bank 
situation?
    Mr. Sopko. I think the important thing is not focusing on 
the exact money inside the bank. But it had to be 
recapitalized, and that money had to come out of the central 
bank, and that is over $500 million. When you are dealing with 
a country like Afghanistan where they have very little money of 
their own, we know that donor money had to be used for that 
instead of better purposes. I think that is the thing to 
consider. And also the problem with the whole financial sector.
    It hasn't gotten any better. That is what people are 
telling me on the last trip, with their financial sector and 
their ability to oversee the financial sector.
    Mr. Chaffetz. Mr. Sampler, there are these news reports 
about USAID and Cuba, relating to Twitter accounts and that 
sort of thing. Do you have any insight into that?
    Mr. Sampler. I don't. Those are in my pile of things to 
read after this hearing, Congressman. I haven't had a chance to 
look at that.
    [Laughter.]
    Mr. Chaffetz. Put that at the top of your pile, if you 
would. I would appreciate it.
    I want to go back to this what you called the mineral 
wealth trap. What are the concerns there? What are the things 
that you are suggesting they need to do or not do?
    Mr. Sampler. Congressman, the Task Force for Business and 
Stability Operations that the Defense Department ran started 
early on working with the Ministry of Mine and Petroleum to 
build their capacity to manage contracts. And to manage 
contracts for what may be up to $3 trillion worth of wealth 
that is buried in the soil of Afghanistan.
    They recognize that if the government gets ahead of the 
contractors and of the vast multinational corporations who want 
to exploit that wealth, the government can benefit directly and 
in significant ways. The resource trap is one, however, where 
the government never builds that capacity. The institutions 
don't reach maturity before the external bidders can take 
control of the resources.
    So the notion is, Afghanistan owns these resources. The 
people of Afghanistan should benefit from them. How can we get 
laws on the books and transparency into those laws so that as 
the resources are exploited, the benefits accrue to the 
government and to the people of Afghanistan?
    Mr. Chaffetz. That is interesting. In the long term, I 
really would appreciate being kept up to date on that. I would 
appreciate it.
    One other thing I want to talk about are these incentive 
funds. I believe the number you used was $75 million?
    Mr. Sampler. That is correct. In last year's budget, we 
used $75 million. In this year, we incentivize $100 million.
    Mr. Chaffetz. Are these bonuses?
    Mr. Sampler. They are not. This is money that comes out of 
existing programs that we incentivize.
    Mr. Chaffetz. But where does that money go? Does it go to 
individuals?
    Mr. Sampler. No, it doesn't, Congressman. It goes to the 
Ministry of Finance for something that we will negotiate with 
the Ministry of Finance.
    Mr. Chaffetz. Give me an example.
    Mr. Sampler. The $50 million they receive for having 
succeeded in getting the election laws on the books in a timely 
manner and appointing the different chairmen and the different 
commissioners, that money went to the Minister of Finance for a 
particular program that the Minister of Finance wanted to fund 
but that we had not funded heretofore.
    The money that we don't award can be awarded by USAID for 
programs that the government of Afghanistan has no interest in 
seeing. So in other words, he gets to choose programs that are 
of more interest to him if they meet the objectives. If they 
don't meet the objectives, and we choose programs that are of 
interest to us, then we put the money somewhere else.
    Mr. Chaffetz. I just fundamentally don't understand. Again, 
it is above and beyond just USAID. But here we are spending 
$102 billion and we have to provide these guys incentive 
bonuses to achieve their metrics and their goals? It sounds 
like a bonus to me. You may say, oh, it was appropriated. But 
we wouldn't have spent it otherwise. It is not as if we saw 
some critical individual need. And you are going to up that 
from $75 million to $100 million?
    Mr. Sampler. What is useful about the incentive, 
Congressman, it is not incentivizing individuals, it is 
incentivizing the parliament, for example, to make difficult 
decisions.
    Mr. Chaffetz. But isn't it incentive enough to say, you are 
not going to get any of our U.S. money unless you do the right 
thing and set up the metrics and the oversight that you need, 
we are not going to give you that money?
    Mr. Sampler. Some of these are more institutional. The 
elimination of Violence Against Women law was something that 
was not politically palatable to the parliament in Afghanistan 
but is absolutely essential to us that that be done. So we have 
incentivized the passage of that law and the implementation of 
quarterly reports about violence against women in the 
provinces. Without some sort of incentive, the president and 
the minister of finance and the cabinet would not have had the 
horsepower to turn Afghan parliamentarians in the direction of 
doing this thing.
    Mr. Chaffetz. Wait a second. Lobbying money?
    Mr. Sampler. No, I wouldn't describe it as lobbying money. 
It is an incentive to get the parliament to do the things that 
we need them to do.
    Mr. Chaffetz. So the parliamentarians get this money? Who 
gets the money?
    Mr. Sampler. No, that is not correct. The Minister of 
Finance, the money that is received
    Mr. Chaffetz. Going back to the specific example of the 
women's violence issue, where does that money go?
    Mr. Sampler. Again, it goes to the Minster of Finance, it 
does not go to members of parliament or even to the parliament, 
but it goes to the Minister of Finance for programs that he has 
identified that he would like us to fund that we heretofore 
have not. And then the same project oversight measures kick in.
    Mr. Chaffetz. So we go through all these assessments, we 
have all these things, we have these objectives. It doesn't 
even show up on our top 200 list. But he has his own pet 
project over here, which we will fund if he passes legislation 
that--I mean, we have a lot of laws here in the United States 
of America that prohibit that type of thing happening here in 
the United States, and we are upping the amount of money that 
we are going to use for this program?
    If we incentivize the Secretary of Education to get some 
laws passed here in the United States Congress, and by the way, 
we are going to go ahead and take your pet project over here 
and fund it, we weren't going to do it otherwise, but we will 
fund that, are you kidding me? That is the very essence of 
corruption. And we are funding that?
    Mr. Sampler. Congressman, it is not his pet project. These 
are programs that
    Mr. Chaffetz. It is a project that he gets to pick. It 
didn't show up on our list.
    Mr. Sampler. The government of Afghanistan, I should not 
characterize it as the Minister of Finance. It is a project of 
importance to the government that we have not yet chosen to 
fund. We still, it isn't a matter of we are obligated to do 
certain things. It is a sense that if the government can make 
these certain milestones that are a part of the Tokyo mutual 
accountability framework then we will incentivize their 
compliance and their achievement of those milestones.
    Mr. Chaffetz. I don't want to get caught up on semantics, 
but I am just telling you, you have an incentive fund, it 
sounds like a bonus, it sounds like a slush fund, it sounds 
like a lot of very negative things. I guess my question to you 
is, would we do that here in the United States. Would we do 
that with our own government? Would we do that? And I don't 
expect them to mirror everything we do in the United States. 
But you are going to have to help explain why we have $100 
million sitting over here that we have this great discretion 
from, we are going to take it from $75 million to $100 million, 
and if they do things that they want to do then--I just don't 
understand.
    Mr. Sampler. Congressman, one of the challenges in 
Afghanistan is that their government is chronologically where 
we were when we disbanded the Articles of Confederation and 
started over.
    Mr. Chaffetz. Oh, it is more like the Stone Age. Fred 
Flintstone is more progressive than a lot of places in 
Afghanistan. And that is the problem. We are $100 plus billion 
dollars later, and they don't have the infrastructure to do the 
basics. I feel for those people.
    But the Special Inspector General asked for a list of the 
ten most impressive, most successful programs in USAID and the 
ten least. There are going to be some failures, we all 
understand and appreciate that. When are you going to provide 
him, and I would like to have a copy of this as well, a list of 
the projects, the most successful and the least successful?
    Mr. Sampler. Congressman, we don't rack and stack our 
projects by most and least successful.
    Mr. Chaffetz. But you go back and assess them, right?
    Mr. Sampler. We do. But they are not compared one against 
another. It is like asking me which of my sons do I love the 
most.
    Mr. Chaffetz. No, but you are going to tell me whether or 
not they were successful in doing something or not. These are 
very tangible items. If we are building a power plant or we are 
building a school, we are trying to build a water well, you 
have to know.
    Mr. Sampler. Congressman, we can share on any given project 
what they succeeded at doing and what they haven't yet 
succeeded in doing.
    Mr. Chaffetz. So you are not going to comply with the 
request from the SIGAR?
    Mr. Sampler. We have provided a list of our top ten 
accomplishments in Afghanistan.
    Mr. Chaffetz. Has USAID satisfied your request, Mr. Sopko?
    Mr. Sopko. Absolutely not. They have given us just some 
generalities. We have increased health, we have increased 
education, we have increased the lives of women and children, 
which is great, we all support it. But we are in the game of 
what particular program or programs or policies led to this 
tremendous doubling of the age or the increase. Because you are 
required by OMB regulation to have that information and they 
are not providing it.
    So no, they have been totally non-responsive.
    Mr. Sampler. To my knowledge, we are not required to rack 
and stack one contract or one program against another. I am 
more than happy to share any information about the successes of 
specific programs. But I do not rack and stack one program 
against another and say, this one was better than that one.
    Mr. Chaffetz. You can understand the concern when we get 
the report from the Special Inspector General for Afghan 
Reconstruction, Congress set this up so we can have some third 
party verification of what is happening and not happening. And 
he uncovers lists of things that don't happen. It is a tough 
place. We have good people in the most difficult circumstances 
I can think of on the face of the planet. The people out there, 
USAID, are doing yeoman's work. We understand that things are 
going to fail.
    But the concern is, when we are $102 billion into it, and 
most of that is DOD, it is not USAID, we continue to pour money 
into this thing and we haven't tackled the most basic problem 
which I think is corruption. If I had to list my top three or 
top four concerns, corruption is right near the top of that 
list.
    Mr. Sampler. It is at the top of everyone's. And 
Congressman, it is not correct that we haven't addressed it, we 
just haven't licked it.
    Mr. Chaffetz. But when you have 333 different 
recommendations and you only insist that they implement 24, I 
have a problem with that. We have an example of the SIGAR 
coming in and seeing an agency or ministry that is doing it the 
right way. Why don't we insist that everybody do it the right 
way? They don't get the money unless they do it the right way. 
More than a decade later, and you think we would have learned 
this lesson.
    Mr. Sampler. The DABS report that I think you are referring 
to as having a ministry that does it the right way actually is 
the model that is used in other ministries. What we are not 
doing at this point in time is disbursing our resources across 
all 700 risks that have been identified. We are focusing our 
resources on the risks that surround U.S. taxpayer dollars. In 
other words, we are huddling around money
    Mr. Chaffetz. NBC News just had this report out today or 
yesterday, Afghan prison built with U.S. money falling down 
before it opens.
    Mr. Sampler. I wish I could comment on that, but that is 
not something we built, Congressman. I saw the story and 
expected to hear about it, but I just don't know what it is.
    Mr. Chaffetz. It says if falls within U.S. State 
Department. This is the first paragraph, an $11 million 
American-funded prison in Afghanistan is falling apart before 
it even opens. And the U.S. State Department plans to rebuild 
it, call for shoddy construction, a government watchdog said 
Wednesday.
    I have gone way past my time. I will yield to the gentleman 
from Vermont, if he has questions.
    Mr. Welch. I actually don't have any more questions. But I 
am hoping that we can do is find a way, Mr. Chairman, to 
perhaps legislate some conditions and bring that to the full 
House for consideration. We just can't keep asking taxpayers to 
blow this money.
    And it is not just about blowing money, if we have a model 
there that simply doesn't work, where this is a total mismatch 
between their resources, their governmental structure and their 
ability to sustain projects in hindsight may have been 
grandiose or misaligned. Let's just not keep pouring good money 
after bad.
    The dilemma, of course, is that it is in our interests as 
well as the Afghans' interest that they don't have a failed 
state. So the goal here is one I share, I think that is a very 
important goal, both for strategic and security reasons and 
humanitarian reasons.
    But the fact that we share a goal doesn't necessarily mean 
we have the means of achieving it. That is the dilemma. And I 
just think that the responsibility that we have in Congress and 
oftentimes have not accepted is to call the question. And I 
think that if we are asking our soldiers or we are asking our 
State Department people to do something that is trying to fit a 
square peg into a round hole, when we ask you to do it, you 
will do it. Then we will go to you to say, why is it not 
working and we forget that we are the ones who started the 
whole thing in the beginning.
    So there is a certain amount of looking in the mirror that 
I think Congress has to do on these policies. But Mr. Chairman, 
I do think it is time, we are asking the question here, but I 
would like to see our committee make that statement to the 
Congress as to what the findings are that your work and Mr. 
Tierney's work has provided, and then maybe as a committee come 
to some conclusions about next steps that we can take that will 
not have us keep digging in the same hole.
    So I thank you and Mr. Tierney for your leadership on this.
    Mr. Chaffetz. Thank you. This is truly an effort that I 
believe is bipartisan in its nature. I do think it is important 
for Congress to understand and look back on what has worked 
well and what hasn't worked well. We are honest about the fact 
that there are good things and there are bad things. If you are 
refusing to rack and stack, as you said, I would appreciate it 
if the Special Inspector General would go through that 
exercise. You highlighted a lot of concerns. But we will do it 
that way, if USAID doesn't want to participate.
    Mr. Sopko. We will do that, sir, it is part of our mandate. 
But as I tried to explain and maybe it wasn't artfully enough, 
I can draw lessons learned upon failures or successes. I am 
required by statute to do lessons learned reports. I would 
prefer to do them on a mix of information. But I can't get 
generalities that health care has been improved. Well of 
course, it improved. If you throw a hundred billion dollars at 
it, obviously it is going to improve. If you stop the shooting 
war, of course it is going to improve.
    And then I hear education has improved, and at the same 
time, there were no buildings. Well, they start comparing 
education right during the war or right after the war. Of 
course there was no education. Everybody was scurrying from the 
Taliban and the bullets.
    So I need something specific because you are demanding from 
me, look at the programs. And if the information isn't provided 
to you, what are you left to do? Across the board cuts. And 
that is not the way to do it. Because that cuts the good 
programs as well as the bad programs.
    So that is what we need to know. Thank you, sir, we will 
try to do that.
    Mr. Chaffetz. Thank you. Thank you both. I appreciate this 
hearing and the good work that the men and women do on the 
front lines.
    This committee stands adjourned.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]




                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
